FDIC’s PRIVACY AND SECURITY NOTICES –
Requirements and Policy Statements on the Internet and Intranet

Office of Inspector General
Office of Congressional Relations and Evaluations
May 19, 2000
Evaluation Report No. 00-004




                                   REPORT HIGHLIGHTS



                                 Privacy and Security Notices at FDIC.gov……………12

                                  FDIC’s Privacy Policy Statement Was
                                  Generally Consistent with Guidance,
                                  But More Links to the Privacy Policy
                                  Statement Are Needed

                                 Privacy and Security Notices at FDICnet……………..17

                                  No Requirement Exists for Employee Privacy
                                  Policy, But Experts Favor the Practice

                                 FDIC Should Consider Establishing a Corporate
                                 Focal Point for Privacy ..…………………………………23

                                 Corporation Comments…………………………………..26
                                                   Congressional Relations and Evaluations
                                                                Office of Inspector General




LETTER FROM THE DIRECTOR
Date: May 19, 2000

To:   John F. Bovenzi
      Deputy to the Chairman and Chief Operating Officer

      Chris Sale
      Deputy to the Chairman and Chief Financial Officer

      William F. Kroener, III
      General Counsel

      Donald C. Demitros
      Director, Division of Information Resources Management and Chief
      Information Officer


Privacy has been and continues to be of significant concern to the public and the
Congress. This was the first in a series of reviews that we plan to conduct
covering privacy-related issues. As you know, the Corporation must be sensitive
to privacy issues on several levels – as a government agency – in its capacity as
a regulator of financial institutions – and as an employer.

Given the heightened concerns about online privacy and, in particular, the
disclosures made about information collected from visitors to web sites, we
decided to concentrate our first review on FDIC’s web site disclosure statements.
Specifically, our objective was to determine whether the content and placement
of web site privacy and security disclosure statements on FDIC’s external and
internal web sites met applicable disclosure requirements and concerns, and if
not, what action FDIC was taking to address those matters. Further, consistent
with the mission of our office, we undertook this review to identify emerging
issues that may warrant management’s attention. In fact, we identified one issue
we believed warranted your attention and further study.

To accomplish our objective, we researched existing and evolving disclosure
requirements and practices, interviewed FDIC and external officials that were
knowledgeable about privacy policy requirements, and lastly, used the
information obtained to evaluate FDIC’s existing external and internal web
privacy and security policies.

FDIC’s external web site had a Privacy Policy Statement that described its
information handling practices. We found that the content of FDIC’s Privacy
Policy Statement on its external web site was substantially consistent with
applicable guidance. We believed this was noteworthy because FDIC’s Privacy
Policy Statement was developed and posted on its external web site in 1998 –
before any requirement to do so. FDIC’s Privacy Policy Statement only lacked
one of the recommended language elements included in the Office of
Management and Budget 1999 policy guidelines. Specifically, it lacked security,
intrusion, and detection language. However, we found that FDIC’s General
Disclaimer included this type of language. In addition, we found that more links
were needed to the Privacy Policy Statement to fully comply with the
requirements. Moreover, we determined that awareness of disclosure
requirements might have been limited among FDIC Webmasters and Internet
Coordinators.

Internally, there was not a requirement to post a clearly labeled privacy policy
statement for employees on FDIC’s internal system and FDIC had not done so.
However, privacy experts are recommending that employers post a visible
banner addressing employee privacy expectations as well as security concerns.
In addition, some agencies, including the Department of Justice, have begun to
visibly post such notices on their systems. FDIC believed that its existing policies
provide adequate notice to employees. Nevertheless, additional reminders
regarding the written procedures would further enhance FDIC policies.

In summary, we made recommendations designed to ensure that FDIC’s external
privacy policy is placed where required through increased awareness of key
employees and strengthened procedures. In addition, we recommended that
FDIC create and post a policy notice for its internal system. We believed adding
a succinct policy statement where employees could regularly see it was a
prudent step and consistent with the notice principle and disclosure framework
established for external web sites.

Finally, we identified a matter we believed warranted further study by the
Corporation. In short, we found that private sector entities and some federal
agencies are establishing privacy focal points. At the federal level, these officials
are distinct from the Privacy Act Officer. We recommended that FDIC examine
the need for a corporate official or committee of officials who would serve as a
focal point and coordinate the Corporation’s privacy-related activities, many of
which fall outside the parameters of those typically handled by the Privacy Act
Officer.

On May 15, 2000, we received a written response from the General Counsel
addressing recommendations 1 and 6. On May 17, 2000, the Director, Division
of Information Resources Management provided a written response to
recommendations 2 through 5. Overall, both the General Counsel and Director
agreed with the findings and recommendations. The responses provided the
requisite elements of a management decision for each of the recommendations.
The written responses are included in their entirety in Appendix I. Appendix II



                                          2
presents our assessment of the responses to the recommendations and shows
that we have a management decision for each of the recommendations.



Stephen M. Beard
Director, Office of Congressional Relations and Evaluations
Office of Inspector General




                                       3
 Table of Contents


Letter from the Director                                1

Background                                              5

Objective, Scope, and Methodology                       9

Privacy and Security Notices at FDIC.gov                12

ü Applicable Guidance from OMB                          12

ü Content of FDIC’s Privacy Policy Statement
  Was Generally Consistent with OMB Guidance            13

ü Additional Links Needed to FDIC Privacy               15
  Policy Statement

Privacy and Security Notices at FDICnet                 17

ü No Requirement Exists for Employee Privacy
  Policy Statement, But Experts Favor the Practice      17

ü Succinct Notice of Existing Employee Privacy
  and Security Policies Needed                          19

FDIC Should Consider Establishing a Corporate Focal
Point for Privacy                                       23

Corporation Response and OIG Evaluation                 25

Appendix I: Corporation Comments                        26

Appendix II: Management Response to Recommendations     30

Appendix III: FDIC’s External Web Site Privacy Policy   32
Statement

Appendix IV: CIO Council’s Proposed Security Notice     34




                                      4
    Background



     Throughout government there is a shared realization that rapid advances in technology,
     interconnectivity, and expanding usage of the Internet increases the need for and priority
     on adequate security and privacy measures.

     Chief Information Office Council Fiscal Year 2000 Strategic Plan




    Recent studies have shown that privacy is the number one concern of those
    using the Internet. Web sites are a powerful tool for providing information on
    activities, objectives, policies, and programs of federal agencies and privacy has
    become a critical issue to the development of web sites. With the traditional
    concerns of government surveillance and use of personal information, federal
    agencies need to be particularly vigilant in addressing privacy issues. In fact,
    the Privacy Act of 1974 was intended to balance the government’s need to
    maintain information about individuals and an individual’s right to be protected
    against unwarranted invasions, maintenance, use, and disclosure of personal
    information by federal agencies. However, legislators did not anticipate the
    advent of the Internet when the Privacy Act was created.

    Accordingly, creating information collection guidelines and standards on the
    World Wide Web has been a consistent problem for the federal government
    since its agencies started creating web sites. The Office of Management and
    Budget (OMB) and General Services Administration (GSA) issued memoranda
    specifically to address this issue. 1 In 1998, GSA issued a memorandum for
    Chief Information Officers and Federal Webmasters outlining Top Privacy
    Principles for Federal Web Sites. GSA’s privacy principles are highlighted on
    the next page. GSA’s memorandum suggested that a privacy notice is needed
    for the web site as a whole to cover web site issues such as logs, E-mails to the
    Webmaster, and other web site issues. The memorandum further stated that
    the emerging practice is to provide a button on the initial home page which
    provides a central location for various disclaimers and legal notices.




1
  OMB has overall responsibility for privacy information and provides guidance on privacy in OMB
Circular A-130, Management of Federal Information Resources. GSA’s Office of Information
Technology issued the memorandum on privacy principles. The Office of Information Technology
is responsible for promoting the strategic management and effective use of Federal information
technology through collaborative development of governmentwide programs.


                                                   5
                        Privacy Principles for Federal Web Sites

    1. Place a high priority on protecting the public’s privacy at federal web sites.
    2. Stay up-to-date on the impact that changes in web site technology have on privacy.
    3. Notify the public using an appropriate privacy notice whenever you are collecting data
       on the Internet.
    4. Use information only for the purpose for which it was gathered as disclosed in the
       privacy notice.
    5. Protect privacy for all forms of data (text, graphics, sound, and video).
    6. Balance the Freedom of Information Act and the Privacy Act of 1974.
    7. Information obtained to conduct system administration functions must still be protected.
    8. Involve and coordinate with the agency’s privacy officer when developing applications
       using the Internet.

    GSA Memorandum Top Privacy Principles for Federal Web Sites


In 1999, OMB issued a memorandum, Privacy Policies on Federal Web Sites, to
the Heads of Executive Departments and Agencies directing agencies to post
clear privacy policies on World Wide Web sites, and provided guidance for doing
so. A privacy policy is generally a comprehensive disclosure describing the
general or on-line policies and practices related to the collection and use of
information. These privacy policy statements are designed to ensure that
individuals have notice and choice about, and thus confidence in, how their
personal information is handled when they use the Internet.

These privacy policy statements are also designed to accommodate the unique
nature of web sites that the Privacy Act did not consider. For instance, the
Privacy Act requires agencies to provide a Privacy Act notice to each individual
from whom it collects information, which is stored in a system of records, keyed
to a personal identifier or other identifying symbol assigned to an individual.2

However, according to OMB’s memorandum, a large fraction of federal web
pages have not collected significant amounts of identifiable information in ways
that entered directly into systems of records covered by the Privacy Act. Mindful
that federal agencies must protect an individual’s right to privacy when they
collect personal information, OMB is requiring federal web sites to include a
privacy policy statement, even if the site does not collect any information that
results in creating a Privacy Act record.

In the private sector, there is no requirement that entities post a privacy policy
statement on their web sites, but more firms are voluntarily doing so. In fact,
1999 studies looking at whether top private sector web sites post privacy
statements revealed that most sites have privacy policies posted. In comparison

2
 The Privacy Act requires that agencies provide Privacy Act notices to inform individuals of the
authority for the solicitation of information, whether disclosure of the information is mandatory or
voluntary, the principle purposes for which the information will be used, the routine uses to be
made of the information, and the effects, if any, of not supplying all or part of the information.


                                                  6
to similar studies done in 1997 and 1998, the private sector showed marked
improvement. The 1999 studies also point out that policy statements do not
always include all the necessary elements that should be included based on fair
information practices.

FDIC, in cooperation with other federal bank and thrift regulatory agencies, also
conducted a survey of the Internet privacy policies of insured depository
institutions during May and July 1999. The survey revealed that many
institutions are taking responsible, voluntary strides toward addressing the
public’s privacy concerns. However, the survey results also indicated that the
industry can and should do more in this area.

Privacy policy statements address one of the fundamental fair information
practices – the principle of notice. The National Information Infrastructure Task
Force described this principle in 1995.

                                       Notice Principle

  Information users who collect personal information directly from the individual should
  provide adequate, relevant information about –
  •   why they are collecting the information;
  •   what the information is expected to be used for;
  •   what steps will be taken to protect its confidentiality, integrity, and quality;
  •   the consequences of providing or withholding information; and
  •   any rights of redress.

  Privacy and the National Information Infrastructure: Principles for Providing and
  Using Personal Information




Another aspect of privacy to be considered in light of emerging technology
involves employee privacy. Indeed, GSA’s 1998 memorandum indicated that the
privacy rights of employees must also be considered in the development of web
sites for Intranets. In short, new technologies make it possible for employers to
monitor employees’ use of electronic equipment. For instance, more companies
are beginning to monitor employees’ use of the Internet. Privacy advocates
acknowledge that employers have a legitimate interest in monitoring work to
ensure efficiency and productivity. Employers also need to ensure that
employees act responsibly and use these technologies with care, otherwise
computer security and corporate confidential and proprietary information could be
compromised resulting in substantial loss. However, unless employees are
alerted – given notice, for example – to monitoring, it could be considered by
employees and the courts to be a violation of employees’ reasonable expectation
of privacy.




                                                   7
In this context, FDIC must address privacy on three levels:

              •   as a government agency with a public web site;
              •   as a regulator charged, in part, to monitoring how financial
                  institutions address this issue; and
              •   as an employer with an Intranet.




                                         8
    Objective, Scope, and Methodology

This review was one in a series of reviews we plan to conduct on privacy-related
topics. The objective of this review was to determine whether the content and
placement of web site privacy and security disclosure statements on FDIC’s
external and internal web sites meet applicable privacy and security-related
disclosure requirements and concerns, and if not, what action FDIC is taking to
address those matters. Consistent with the mission of our office, we undertook
this review not only to provide assurance that FDIC’s existing policies and
practices are consistent with applicable guidance, but also to identify emerging
issues that may warrant management’s attention.

To accomplish our objective we:

ü Interviewed officials from the OMB, GSA Office of Governmentwide Policy,
  and the Chief Information Officers (CIO) Council. 3 Our research indicated
  that these officials were knowledgeable about governmentwide policies on
  privacy and security.

ü Researched privacy-related topics on the Internet to yield articles and issue
  papers relevant to our review.

ü Identified and reviewed the following guidance for federal agencies:

        •   OMB Memorandum 99-18 Privacy Policies on Federal Web Sites
            dated June 2,1999,4
        •   GSA Memorandum for Chief Information Officers and Federal
            Webmasters on Top Privacy Principles for Federal Web Sites issued in
            1998,
        •   GSA Office of Governmentwide Policy Memorandum, Model “Limited
            Personal Use Policy” of Government Equipment dated June 7, 1999,
            and
        •   National Information Infrastructure Task Force paper entitled Privacy
            and the National Information Infrastructure: Principles for Providing and
            Using Personal Information dated June 6, 1995.

ü Discussed the development of FDIC’s Privacy Policy Statement and General
  Disclaimer and relevant FDIC policies and procedures with officials in the
  Division of Information Resources Management (DIRM), Legal Division,


3
  The CIO Council is the principal interagency forum to improve the design, modernization, use,
sharing, and performance of Information Technology resources.
4
  We did not ask FDIC’s Legal Division to formally opine whether FDIC was required to comply
with OMB’s memorandum because DIRM officials told us it was their intent to comply regardless
of its statutory applicability to the Corporation.


                                               9
   Office of the Executive Secretary (OES), Division of Compliance and
   Consumer Affairs (DCA), and Office of Corporate Communications.

ü Reviewed relevant FDIC policies, including:

      •   Circular 1370.3, Use of Electronic Communications, dated August 6,
          1997,
      •   Circular 1351.3, Internet Access and Acceptable Uses, dated
          September 2, 1994,
      •   Circular 1370.4, Publishing FDIC Information Via the Internet and
          FDICnet, dated August 29, 1997,
      •   Circular 1031.1, Privacy Act of 1974: Employee Rights and
          Responsibilities, dated March 29, 1989, and
      •   Circular 1213.1, FDIC Forms Management Program, dated
          October 20, 1994.

   Our review of FDIC’s policies addressing employees’ use of FDIC’s computer
   resources was limited to the privacy aspect of those policies.

ü Reviewed FDIC Correspondence Manual Chapter 7, Electronic
  Correspondence and DIRM’s A User’s Guide to Information Security.

ü Evaluated the placement and content of FDIC’s existing Privacy Policy
  Statement and General Disclaimer on the external home page based on the
  relevant guidance on privacy and security notices we identified. Specifically,
  we:
      • compared the language content of FDIC’s policy to guidance in OMB
        Memorandum 99-18 and GSA Memorandum on Top Privacy Principles
        for Federal Web Sites, and
      • systematically reviewed FDIC’s external web pages to test whether the
        required privacy policy link was located on pages where personal
        information was collected from the public.

ü Reviewed and evaluated FDIC’s disclaimers and notices posted on FDIC’s
  Intranet (FDICnet).

ü Sent a survey to 54 FDIC staff members who are designated as Division
  Internet Coordinators or Webmasters. The intent of our survey was to assess
  their knowledge of OMB’s guidance for external web privacy policies and
  FDIC’s Privacy Policy Statement and General Disclaimer. Additionally, we
  were interested in getting their views on posting a privacy statement for
  employees. We received responses from 14 of the 54 officials surveyed.

ü Contacted other agencies, primarily federal banking and thrift regulatory
  agencies, to learn about: Internet privacy policies, Internet security and
  general disclaimer notices, and whether privacy and security notices were


                                      10
   visibly posted on their respective Intranets. Our goal in doing so was to
   identify best practices. Specifically, we reviewed the privacy policies posted
   on the principle web page for the Office of Comptroller of the Currency
   (OCC), Board of Governors of the Federal Reserve System (Federal
   Reserve), Office of Thrift Supervision (OTS), National Credit Union
   Administration (NCUA), and Department of the Treasury. The Federal
   Reserve also has a separate disclaimer posted that we reviewed in
   conjunction with its privacy policy.

ü Interviewed an official at the Department of Justice to discuss the type of
  notice or banner posted on its internal system and rationale for doing so.

ü Coordinated our review with OIG’s Office of Audit, which was conducting a
  related review entitled Controls Over Employee Internet Use. The objectives
  of that review were to determine the adequacy of (1) FDIC’s policies
  governing Internet use and (2) current procedures and tools used to monitor
  FDIC employees use of Internet resources.

ü Consulted with the OIG’s Office of Counsel.

During our review, OES and the Legal Division reviewed web forms to ensure
that the proper Privacy Act notices were on those forms. Accordingly, the scope
of our review did not include evaluating whether Privacy Act notices were
included where required. However, we did consider the results of their review in
evaluating issues that we believe may warrant management attention.

We conducted our review from November 1999 to March 2000 according to the
President’s Council on Integrity and Efficiency’s Quality Standards for
Inspections.




                                        11
 Privacy and Security Notices at FDIC.gov

FDIC’s Privacy Policy Statement on its World Wide Web page (www.fdic.gov)
was substantially consistent with the model language provided in OMB
Memorandum 99-18 Privacy Policies on Federal Web Sites, and with the content
of privacy statements of other agencies that we contacted. However, it lacked
security, intrusion, and detection language that OMB suggested agencies include
in their privacy policy statements. In addition, we found the Privacy Policy
Statement was not located on all web pages that collect personal information as
required. A review of web forms done by the Legal Division and OES also found
that the required Privacy Act notices were not on all web forms as required.
Finally, our survey results indicated that awareness of privacy disclosure
requirements might have been limited among FDIC Webmasters and Internet
Coordinators.

Applicable Guidance from OMB

The intent of a privacy policy statement is to tell visitors to the site how any
information obtained from them, either automatically or voluntarily provided, is
handled. As discussed in the background section, OMB’s Memorandum 99-18,
Privacy Policies on Federal Web Sites, provides guidance for creating a privacy
policy statement. We also learned that the CIO Council was in the process of
developing guidance to standardize security notices posted on federal web sites.


                       OMB’s Privacy Policy Requirements
•   Post a privacy policy statement on the principal web sites by September 1, 1999.
•   By December 1, 1999, OMB directed agencies to add privacy policies to any other
    known, major entry points as well as at any web page where substantial personal
    information from the public is collected.
•   Each policy must clearly and concisely inform visitors to the site

                ü what information the agency collects about individuals,
                ü why the agency collects it, and
                ü how the agency will use it.
•   Privacy policies must be clearly labeled and easily accessed when someone visits a
    web site.


To assist agencies in reviewing their existing privacy policies or in creating such
a policy, OMB provided guidance and model language for several different
information practices. OMB’s memorandum stated that agencies could use the
model language verbatim, or as a starting point in crafting a policy tailored to
meet the agencies’ own requirements. OMB’s memorandum suggested that
agencies include the following language in their privacy policies:



                                               12
Introductory language                ü Overview language about privacy practices at the start
                                       of the policy.

Information collected and stored     ü The policy should make clear whether or not the
automatically                          agency is collecting information automatically or using
                                       cookies and whether any steps will be taken to collect
                                       more information.

Information collected from E-        ü Some statement about how identifiable information is
mails and web forms                    treated when the individuals provide it through E-mail
                                       or web forms.

Security, intrusion, and detection   ü Some statement about whether the agency uses
language                               information collected on a site to detect harmful
                                       intrusions and to take action once an intrusion is
                                       detected.

Significant actions where            ü For situations where a Privacy Act notice would be
information may be subject to the      required in the paper-based world, the general
Privacy Act                            principle is that the equivalent notice is required in the
                                       on-line world. Posting of the relevant Privacy Act
                                       notice on the web page or through a well-marked
                                       hyperlink would be appropriate.



Content of FDIC’s Privacy Policy Statement Was Generally Consistent with
OMB Guidance

FDIC’s Privacy Policy Statement was developed with input from DIRM, the
Internet Operating Committee, OES, DCA, and the Legal Division. FDIC’s policy
statement was developed and posted on the external web site in 1998. Officials
reviewed the policy statement after OMB’s memorandum was issued in 1999.
FDIC’s Privacy Policy Statement discloses the Corporation’s information
gathering and dissemination practices of its web site.

Consistent with OMB’s memorandum, FDIC’s privacy policy describes what
information the agency collects about individuals, why the agency collects the
information, and how the agency will use the information. FDIC’s external web
site Privacy Policy Statement is included as Appendix I. Notably, FDIC’s privacy
statement includes all of OMB’s suggested model language noted above except
for the security, intrusion, and detection language.

FDIC OIG and Legal Division counsel informally opined that the OMB’s guidance
does not require that agencies include all the model language suggested by
OMB in their respective privacy policies. DIRM officials told us that they
intentionally did not include security, intrusion, and detection language in the
privacy policy because this type of language is not considered to be user-friendly.
In addition, they were concerned that this type of language could attract
“hackers”. According to DIRM officials, if an entity advertises that it monitors for
unauthorized attempts to upload information – hackers are more inclined to try.


                                             13
However, FDIC’s General Disclaimer, also posted on its web site, contains
security, intrusion, and detection language. Specifically, it states

              “This is a protected U.S. government web site. It is unlawful
              to intentionally cause damage to it or to any FDIC electronic
              facility or data through the knowing transmission of any
              program, computer virus, information code, or command.
              This system and related equipment are subject to
              monitoring. Information regarding users may be obtained
              and disclosed to authorized personnel, including law
              enforcement authorities, for official purposes.”

Thus, FDIC addresses this aspect of the model language, but not as part of its
privacy statement. Nonetheless, we raised this issue because we learned that
the CIO Council is working on new guidance that will likely require agencies to
post a separate security notice on World Wide Web sites. An official working on
the project told us that the goal of the Council is to standardize the language
used governmentwide. The language that the CIO Council provided to us is
included in Appendix II. The proposed language is similar to the language
included in FDIC’s General Disclaimer. However, the proposed language
identifies the applicable criminal statutes that can be pursued for intentional harm
caused to a web site.

We also found that FDIC’s Privacy Policy Statement language was consistent
with that of the other agencies we contacted. Table I shows the five OMB
language guidance elements and how FDIC’s Privacy Policy Statement
compared to the privacy statements of each of the other bank regulation
agencies during our evaluation.

Table I: Comparison of Agency Privacy Policy Statements
                                        Federal
    Notices and Content        OCC      Reserve      OTS    Treasury NCUA         FDIC
Privacy Policy on External     ü          ü          ü         ü         ü        ü
Web Page
Other Type of Notice or                                                          General
Disclaimer Posted             Security Disclaimer Security    None       None   Disclaimer
Introductory Language          ü          ü          ü                             ü
Information collected and      ü          ü          ü         ü         ü         ü
stored automatically
Information collected from E-  ü          ü          ü         ü         ü         ü
mails and web forms
Security, intrusion, and                  ü                    ü         ü
detection language
Significant actions where                                                          ü
information may be subject
to the Privacy Act
Source: OCRE analysis of agency privacy policy statements and other notices




                                           14
Additional Links Needed to FDIC Privacy Policy Statement

While the content of FDIC’s privacy policy was substantially consistent with
OMB’s guidance, we found that FDIC’s Privacy Policy Statement was not located
on every web page that collects personal information as required. Specifically,
from FDIC’s Internet home page, we systematically reviewed 61 web pages to
test whether there was a link to the Privacy Policy Statement on web pages that
collect personally identifiable information. We found FDIC’s privacy policy was
posted as required in 55 of 61 instances. On the six web pages where the policy
was not posted, individuals were required to provide their name, address,
telephone number, or E-mail address to receive information. We talked with
officials at GSA and OMB knowledgeable about OMB requirements and they
agreed that these items are generally considered to be personal information.
Accordingly, they stated FDIC should add links to the Privacy Policy Statement.

We provided OES with copies of the web pages we identified. OES agreed to
review the pages and verify that those pages were indeed required to be linked
to FDIC’s Privacy Policy Statement. OES also planned to evaluate whether any
of those pages required a Privacy Act notice because of their ongoing work in
that regard. Specifically, officials in the Legal Division and OES recently
undertook a review of web forms to ensure that Privacy Act notices were posted
as required. Their review found that some web forms did not include the required
Privacy Act notices. Officials told us that the Privacy Act notices were
subsequently added to some of the forms identified in their review. The Privacy
Act Officer was researching the need for a Privacy Act notice for the remaining
forms identified. The need for a Privacy Act notice is important not only to
comply with the Privacy Act, as we explained in the background section, but also
to ensure that FDIC’s Privacy Policy Statement accurately reflects its practice.
Specifically, FDIC’s Privacy Policy Statement tells visitors that Privacy Act
notices are posted where required.

We believed omissions of privacy disclosures could continue to occur unless
FDIC strengthens procedures to ensure that officials knowledgeable of privacy-
related disclosure requirements review web pages before they are posted. In
addition, Webmasters and Internet Coordinators must be aware of the need for
such a review. The responses to our survey of Webmasters and Internet
Coordinators indicated that awareness of privacy disclosure requirements might
have been limited. Specifically, 9 of the 14 respondents had reviewed FDIC’s
Privacy Policy Statement, and just 2 of the 14 respondents were aware of OMB’s
guidance.

FDIC had procedures in place covering the review of information before it is
posted on the web. For instance, FDIC Circular 1213.1, FDIC Forms
Management Program states that the OES in coordination with the Document
Management Section ensures that forms adhere to specific public reporting
requirements, including the Privacy Act. However, we noted that FDIC’s Circular



                                      15
1370.4, Publishing FDIC Information Via the Internet and FDICnet, does not
specifically address the need to consider Privacy Act requirements or the
external Privacy Policy Statement. Further, an OES official told us that officials
knowledgeable about privacy-related disclosures did not always review web
pages before they were published on the Internet.

Certainly, FDIC deserves credit for its efforts to date in developing and posting a
privacy policy on its external web site. However, FDIC needed to take additional
action to ensure that its fully complies with new mandates and that its privacy
policy accurately reflects its practices. We believed this was important not simply
to comply with requirements, but to help ensure the Corporation effectively deals
with the number one concern of those using the Internet – privacy. Additionally,
and perhaps more importantly, FDIC could lead by example in dealing with an
issue that it is requiring financial institutions to address. Accordingly, we
recommended that:

FDIC’s General Counsel should have FDIC’s Office of Executive Secretary:

1. Complete its review of web pages we identified and add any necessary links
   to the Privacy Policy Statement and any required Privacy Act notices.

The Director, DIRM, should have the Chief, Internet Publication Section:

2. Contact the CIO Council and review the proposed security notice language
   and determine how the Corporation will respond to the pending guidance from
   the CIO Council.

3. Develop guidance for Internet Coordinators and Webmasters and ensure
   through training or other means deemed appropriate that they are aware of
   privacy-related disclosure requirements of OMB Memorandum 99-18 and the
   Privacy Act. As appropriate, existing procedures for reviewing information
   posted on FDIC’s Internet web site should be modified to reflect guidance
   developed.

To the extent necessary, the Chief, Internet Publication Section should work in
consultation with OES and the Legal Division to address these
recommendations.




                                        16
 Privacy and Security Notices at FDICnet

At the time of our review, there was not a requirement to post a privacy policy
statement for employees on Intranets. However, privacy experts believe the
practice of posting a policy statement (i.e., notice or banner) on internal systems
is advisable. Furthermore, we learned that some other agencies have such
notices posted on internal home pages, E-mail screens, or log-in screens. We
realized that FDIC had various policies addressing this issue. Nevertheless,
without a visible banner or link to a succinct policy statement there was a risk that
employees might not be sufficiently mindful of FDIC’s policies. The presence of
a banner reduces that risk by serving to remind employees of pertinent FDIC
policies. FDIC officials told us they were in favor of adding a banner or notice.
We believed this was a prudent action.

No Requirement Exists for Employee Privacy Policy Statement, but Experts
Favor the Practice

None of the external officials we interviewed were aware of any specific guidance
requiring that privacy policies be posted for employees on Intranets. Officials at
OMB and the CIO Council told us these issues have been discussed, but up to
now, the focus has been on developing guidance for external federal web sites.
Nonetheless, an official from the CIO Council told us that the security notice
being developed for external web sites that we previously discussed could be
used on internal systems as well.

According to articles written on the subject, posting a visible banner or notice on
internal systems is an advisable practice. This practice was recommended in
addition to having policies in employee manuals. The reason for posting this
type of banner is to remind employees about the policies for the use of electronic
equipment as well as the policies for monitoring such use. Similar to an external
privacy policy, the intent of this type of notice is to assist employees in
understanding the employer’s data collection and information handling practices.
It can also be used to remind employees about the appropriate use of electronic
resources and employee security responsibilities. Applying the standards for
external policy statements, the notice should be clearly labeled and easily
accessed.

Courts will look at an employer’s policies in determining whether employees have
a reasonable expectation of privacy in their electronic communications. For
example, according to an article written on the subject, violations of employee
expectations of privacy whether by accessing a top desk drawer, reading files on
a desk, or reading E-mail have similar consequences. If not done within the
expected norms, employers risk expensive litigation and diminished employee
morale. FDIC believes its policies provide adequate notice of Internet monitoring
procedures such that employees cannot have an objective expectation of


                                         17
privacy. Nevertheless, additional reminders regarding the written procedures
would further enhance the FDIC’s position.

Guidance developed by the Electronic Messaging Association for use in
developing an E-mail monitoring policy is highlighted below. We found this
guidance to be a good summary of what other experts suggest and believe it can
be useful in developing policies for employee use of the Internet and other
electronic equipment resources. Notably, one of the suggested practices is to
post a notice when employees log on to the computer network.


                                     Policy Guidance

1. Develop or extend corporate policies to address employee privacy expectations.

2. Determine the extent of any current monitoring and limit monitoring to “work related” and
   supervisory activities. State extent of monitoring in policy.

3. Educate and periodically remind employees and management of policy.

4. Post a notice when employees log onto the computer network and require an affirmative
   acknowledgement by having the employees indicate that they have read the screen before
   moving on. The notice should state clearly that the system and e-mail are not private and
   will be audited and the parameters of employee use. It should also state on-line etiquette
   for using the network and company resources.

5. Address back-up and retention of stored mail.

6. Set forth how any accessed information will be used.

Electronic Messaging Association



In addition to expert opinion, two agencies we contacted had notices or visible
links to their policy statements on their internal systems. Specifically, we were
told that the Federal Reserve’s Internet and Automated Systems: Appropriate-
Use and Privacy Policy periodically appears on employees’ screens. Employees
must click a button to acknowledge that they have read the policy statement. We
were also told that the Department of the Treasury’s internal home page has a
visible link to its Internet use policy. When using E-mail, employees see a
banner appear on the screen that states E-mail should not be considered private.

An official at the Department of Justice (DOJ) stated it had a banner on the
system log-in screen. The banner essentially tells DOJ employees that they
should have no expectation of privacy and that the use of E-mail and Internet
could be monitored. Employees are required to click a button to acknowledge
the terms of the notice. According to this official, putting this notice up-front
makes the most sense. The OIG’s Office of Audit also found in its review of
Controls Over Employee Internet Use that posting a notice or banner


                                              18
communicating the Corporation’s monitoring policy was done at other agencies
and determined it to be a best practice.

Succinct Notice of Existing Employee Privacy and Security Policies Needed

FDIC had a notice posted on the FDICnet home page that is highlighted below.
However, this notice did not address employee use of the Internet or Intranet,
privacy, or warn that only authorized users should access the system. We did
not see any other notice, banner, or visible link to a privacy policy for employees
posted on the FDICnet home page.


                         FDICnet Home Page Notice
         “FDICnet is the Intranet for the FDIC. This network provides a
         secure location for posting information for the FDIC. Internal
         Resources are accessible through FDICnet. There are also links to
         external sites on the World Wide Web (WWW) to aid research.
         Information posted here cannot be accessed by users of the
         Internet. Links to sites outside of FDICnet do not imply
         endorsement by the FDIC. The FDIC cannot guarantee the validity
         of any site on the WWW. “




We also reviewed the notices posted on the FDICnet division and office home
pages. We found that only a few home pages had notices. Generally, the
notices were similar to the notice posted on the FDICnet home page except for
the Legal Division’s home page. That home page notice advised employees that
information and documents presented on the Intranet contained information for
internal use of FDIC personnel only. Further, the Legal Division notice states
that none of the materials should be distributed to the general public without
proper approval.

In addition, FDIC’s General Disclaimer posted on the external web site
(www.fdic.gov) states that the terms “extend to the FDIC, its directors, officers,
and employees”. In addition to providing a security warning as discussed earlier
in the report, it also provides general notice that the FDIC’s system is subject to
monitoring. Employees may occasionally access FDIC’s external web site
through the FDICnet home page, but it is not likely they routinely do so.
Moreover, there is nothing visible on the FDICnet home page to direct or link
employees to the General Disclaimer. Thus, employees might not be sufficiently
mindful that the policy statement in the General Disclaimer is applicable to them.

FDIC also had several policies that address employee privacy with regard to
E-mail, use of the Internet and Intranet, and security issues. Employees can
access these policies through the FDICnet. Table II summarizes key aspects of



                                            19
these policies relative to employee privacy and employee responsibilities with
respect to security.

Table II: Privacy and Security Policy Statements Relative to Employees
           Policy                            Policy Excerpts
 Circular 1370.3 Use of         ü The Corporation cannot guarantee that electronic
 Electronic Communications        communications will be private.

                                ü It is the policy of FDIC not to regularly monitor the content to
                                  electronic communication. However, the content of electronic
                                  communications and the usage of electronic communications
                                  will be monitored for the performance of operation,
                                  maintenance, auditing, security, or investigative functions.
                                  Electronic communications statistical data will continue to be
                                  collected on a routine basis.

                                ü Monitoring may also be necessary in order to comply with legal
                                  requirements that FDIC records be examined or produced, such
                                  as those of the Freedom of Information Act, court rules or court
                                  orders. Emergencies of internal security concerns reasonably
                                  necessitate such monitoring.

                                ü Use of the FDIC’s electronic communications systems
                                  constitutes the user’s consent to this policy.
 Circular 1351.3, Internet      ü E-mail is not private communication, since others may be able
 Access and Acceptable Uses       to read or access it.

                                ü Employees are required to be aware of computer security and
                                  privacy concerns and to guard against computer viruses and
                                  security breaches of any kind.

                                ü Employees should not send any sensitive information without
                                  prior approval from the appropriate managers, data stewards,
                                  and DIRM’s Security Administration Section. Be aware that
                                  Internet E-mail is not a secure communication channel.
 FDIC’s A User Guide to         ü All information sent and received through the Internet should be
 Information Security             considered vulnerable as it can be read and even manipulated
                                  by others. Do not send sensitive information over the Internet
                                  as it may compromise the security of the Corporation.
 FDIC Correspondence            ü Employees should not put anything in an E-mail message that
 Manual chapter on Electronic     they would not want anyone other than the intended recipient to
 Correspondence                   see. For example, the manual points out that employees
                                  should not provide credit card numbers or other confidential
                                  information that could wind up in the wrong hands.

                              ü At times it may be necessary to intercept, monitor, disclose, or
                                  assist in intercepting or disclosing electronic communications.
                                  While the Corporation is committed to respecting the privacy of
                                  its employees consistent with applicable law, regulation, and
                                  policy, be aware that electronic communications can be
                                  forwarded, printed, and stored by others.
Source: OIG Analysis of FDIC policies




                                              20
Consistent with the notice principle and the framework for privacy policy
statements for external web sites, these policies informed employees about:

       •   The information the agency collects about the individuals,
       •   Why the agency collects the information, and
       •   How the information will be used.

However, it could be argued that these policies were not readily apparent to
employees unless they searched through FDIC’s directive system.

Although we understood the importance of established policies, we believed
more could be done to ensure employees are mindful of the policies. Generally,
FDIC officials we interviewed agreed. An official from DIRM’s Information
Security Staff stated that it was important that all users be made aware of their
rights and the Corporation’s responsibilities regarding privacy issues. In addition,
57 percent of Internet Coordinators and Webmasters that responded to our
survey favored the idea of posting a privacy policy statement on the FDICnet.

We did not evaluate the content of these FDIC’s policies other than to see how
employee privacy was addressed. However, these policies were evaluated as
part of the OIG’s review of Controls Over Employee Internet Use. The results of
that review suggested that FDIC should strengthen its policy with respect to the
use of electronic equipment. Accordingly, in conjunction with the findings of that
review, we believed FDIC may want to review GSA’s Office of Governmentwide
Policy Memorandum, Model “Limited Personal Use Policy” of Government
Equipment dated June 7, 1999. This memorandum provides guidance to assist
agencies or departments in defining acceptable use conditions for employees
personal use of Government office equipment, including information technology.
With regard to privacy, GSA’s model policy suggests that “Executive Branch
employees do not have a right, nor should they have an expectation, of privacy,
while using any Government office equipment at any time, including accessing
the Internet, [sic] using E-mail.

“Any use of government communications resources is made with the
understanding that such use is generally not secure, is not private, and is not
anonymous.”

In summary, although a privacy policy notice was not required for internal
systems at the time of our review, we believed FDIC needed to add a visible
notice of the Corporation’s privacy and security policies directed to employees.
Consistent with their desire to be leaders in evolving technology-based privacy
issues, DIRM officials agreed with the concept. Based on discussions with




                                        21
officials in DIRM, we believed this banner or notice should appear on the FDIC
log-in screen. Accordingly, we recommended that:


The Director, DIRM should have the Chief, Information Security Section:

4. Develop a notice for FDIC’s internal network addressing employee privacy.

Once developed, the Director, DIRM should have the Assistant Director,
Operations Branch:

5. Visibly post the notice developed by the Chief, Information Security Section
   on FDIC’s internal network.

To address various privacy interests and security concerns with respect to
employee use of computer resources, we believed DIRM officials should consult
with the Legal Division in developing appropriate language to include in the
notice or policy statement. We suggested the Corporation consider the following
points in developing the language for the banner:

      •   Consistent with the framework for the external policy, the banner
          should tell employees the type of information the agency collects about
          the individuals, why the agency collects the information, and how the
          information will be used and include appropriate security language.
          The banner should also be clearly visible and easily accessed.

      •   The banner should clearly define for employees the level of privacy to
          be expected when using the Corporation’s resources.

Finally, because employee privacy is directly impacted by any changes to the
Corporation’s current policies being contemplated as a result of OIG’s review of
Controls Over Employee Internet Use, our recommendation should be
considered in conjunction with the results of that review.




                                       22
 FDIC Should Consider Establishing a Corporate Focal Point for Privacy

As we point out in the background section of the report, privacy is the number
one concern of those using the Internet. Privacy policies have emerged as a
common vehicle that government agencies and the private sector have
developed to address privacy concerns of those using the Internet. This was the
focus of this review. However, another matter came to our attention that we
believed warranted further consideration. Specifically, in conducting this review,
it became apparent that FDIC did not have a focal point to address privacy
issues outside the realm of the Privacy Act Officer. We believed it was important
to raise this issue because privacy has been and continues to be of significant
concern to the public and the Congress.

For example, in the context of this review, no one division, office, or official was
responsible for developing or implementing FDIC’s external Web site Privacy
Policy Statement. As we discussed earlier in the report, at FDIC, a team
consisting of officials from DIRM, DCA, and the Legal Division developed FDIC’s
Privacy Policy Statement. This approach was appropriate; in fact, we found it
was a recommended approach for developing such a policy. However, during
the review, as issues emerged with respect to interpretation of OMB guidance
and implementation of FDIC’s Privacy Policy Statement, there was some degree
of confusion among officials in determining the appropriate boundaries of
responsibility. Given the current visibility and scrutiny privacy policies are
receiving, we believed it was important for the Corporation to have a focal point
to address this issue as well as other privacy-related issues that do not fit under
the umbrella of the Privacy Act.

In this vein, we believed ongoing changes in technology would cause new issues
and new expectations to arise regarding privacy. According to FDIC’s
Information Technology Strategic Plan, FDIC’s strategy is to expand the use of
the Internet and Intranet for both internal and external communication and
transaction processing. Not only are Internet privacy issues emerging daily, but
employee privacy issues are also on the rise because of technology. In addition,
FDIC must also ensure that privacy issues are considered in the development of
new systems, a role now fulfilled in part by the Privacy Act Officer.

Moreover, privacy issues extend beyond the context of the Internet, FDICnet,
and systems development at FDIC. As a regulatory agency, FDIC must be
sensitive to financial privacy concerns of consumers. Under the newly enacted
Gramm-Leach-Bliley Act, FDIC was part of a team of regulators that developed a
rule that, in part, will require financial institutions to provide notice to customers
about its privacy policies and practices. Going forward, FDIC will be responsible
for regulating institutions’ implementation of the final rule with regard to privacy
policies and practices. We believed FDIC needed to ensure that the implications
of this legislation and rule are understood corporate-wide.


                                         23
The growing impact of privacy concerns on organizations is not unique to FDIC.
In the private sector, some of the largest banks are appointing corporate privacy
officers. The intent of doing so is to give privacy visibility and send a message
that privacy is considered an important area of concern to be addressed. We
also learned that some federal agencies, including the Internal Revenue Service
and the Department of Health and Human Services, have appointed Privacy
Advocates, whose primary responsibility is to oversee their agency’s compliance
with privacy laws and to participate in the development of privacy policies. In
both organizations, these Privacy Advocates are senior level officials distinct
from Privacy Act Officers. More specifically, these officials are responsible for
such things as:

   •   consulting on proposals for new data systems, for programs requiring new
       collections of data, and for regulatory and legislative actions necessitating
       data collection, and providing advice on the implications of personal
       privacy;

   •   conducting or commissioning research and technical studies on disclosure
       policies;

   •   focusing on issues of use and disclosure of personal information for other
       agencies of government, as well as privacy and consumer advocacy
       organizations, and private-sector organizations that use personal data;
       and

   •   training employees on privacy issues and policies, including the
       seriousness of non-compliance.

Certainly, the concern for privacy is heightened by the nature of the information
handled by these agencies. However, we believed the concept of a focal point
for privacy, such as these Privacy Advocates, should be studied further by FDIC
management. Accordingly, we recommended that:

The Chief Operating Officer, Chief Financial Officer, and General Counsel:

6. Form a working group to study, and prepare a report on, the need for
   establishing a focal point in the Corporation for privacy issues. This focal
   point could either be a senior-level official or a committee of senior-level
   officials that would:

   •   promote privacy awareness throughout the Corporation,
   •   provide consultation and technical expertise on incorporating privacy
       principles into data systems and business activities, and
   •   be a point of contact and source of information on privacy issues as they
       relate to the Corporation's bank regulatory oversight responsibilities.

                                        24
We suggested that the working group consist of representatives of divisions most
impacted by privacy issues, regulations, and legislation. The resulting report
could be presented to the Operating Committee or Chairman's Working Group,
whichever is deemed to be the most appropriate based on the nature of the issue
and outcome of the study.


 Corporation Response and OIG Evaluation

We received written responses to our draft report from the General Counsel and
Director, DIRM. Specifically, on May 15, 2000, we received a response from the
General Counsel addressing recommendations 1 and 6. On May 17, 2000, the
Director, DIRM provided a response to recommendations 2 through 5. Overall,
both the Legal Division and DIRM agreed with the report’s findings and
recommendations. The responses provided the requisite elements of a
management decision for each of the recommendations. Management’s written
responses are included in their entirety in Appendix I.




                                      25
Appendix I

             Corporation Comments




                      26
Appendix I

             Corporation Comments




                      27
Appendix I

             Corporation Comments




                      28
Appendix I

             Corporation Comments




                      29
Appendix II

Management Response to Recommendations

This table presents management responses to recommendations in our report and the status of management decisions.
Management's written response to our report provided the information for management decisions.



                                                                Expected    Documentation That
 Rec.                                                          Completion    Will Confirm Final        Monetary       Management
Number        Corrective Action: Taken or Planned                 Date             Action              Benefits    Decision: Yes or No
   1      The Office of Executive Secretary completed its     Completed     Memorandum from            No         Yes
          review of web pages that were identified by the                   OES describing
          OIG as potentially lacking necessary links to                     results of their review.
          the Privacy Policy Statement and/or Privacy Act
          notices.
   2      Division of Information Resources Management        06/30/00      Copy of security           No         Yes
          (DIRM) Internet Publication Section (IPS) has                     notice posted on
          reviewed the Chief Information Officers                           FDIC’s Internet web
          Council’s proposed security notice and will                       site.
          implement a security notice on FDIC’s Internet
          web site.
   3      IPS will develop guidance for Internet              11/30/00      Guidance issued to         No         Yes
          Coordinators and Webmasters to ensure                             Webmasters and
          awareness of privacy-related disclosure                           Internet Coordinators
          requirements. In addition, existing procedures                    and modified
          for reviewing information posted on FDIC’s                        procedures.
          Internet web site will be modified to reflect the
          guidance developed.




                                                                     30
4   DIRM’s Information Security Section will             07/31/00    Privacy statement        No   Yes
    develop a privacy statement in conjunction with                  developed by DIRM
    the Legal Division and provide that statement to                 and Legal Division.
    DIRM’s Technical Infrastructure staff to post on
    the internal system.
5   DIRM’s Technical Infrastructure staff will visibly   10/31/00    Copy of privacy notice   No   Yes
    post the privacy statement on FDIC’s internal                    posted on FDIC’s
    network after a 1-month pilot implementation.                    internal network.
6   A working group will be formed to study and          06/15/00    Memorandum               No   Yes
    prepare a report on the need for establishing a                  documenting
    corporate focal point for privacy issues.                        formation of working
                                                                     group.




                                                                31
 Appendix III

                FDIC’s External Web Site Privacy Policy Statement
The FDIC is strongly committed to maintaining the privacy of your personal information. The
following discloses our information gathering and dissemination practices for this site. The
information the FDIC receives depends upon your actions when visiting the Corporation’s web
site.

Information Collected About Your Visit to the Web Site
The FDIC automatically collects and stores the following information about you when you visit our
Web site:

    •   The date and time the request was received.
    •   Your Internet Protocol (IP) address, or the proxy address of your Internet Service
        Provider (e.g. AOL, CompuServe, and so on).
    •   The name and IP address of the FDIC server that received and logged the request.
    •   The resource on an FDIC server accessed as a result of the request, such as the Web
        page, image, and so on.
    •   The query in the request. This field captures any criteria or parameters issued with a
        query, such as a bank name or insurance certificate number.
    •   The name and version of the your Web browser (e.g. Netscape 4.0).
    •   The content of any sent or received cookie.
    •   The Uniform Resource Locator (URL) that was accessed before the user made a request
        for FDIC’s Web server. The URL may be an outside address that is not related to the
        FDIC server.
    •   Other status codes and values resulting from the Web server responding to the request
        received: HTTP status code, Windows NT code, number of bytes sent, number of bytes
        received, duration (in seconds) to fulfill the request, server port number addressed, and
        protocol version.

Some parts of the FDIC Web site may use a "cookie", which is a file placed on your computer
hard drive, that allows the FDIC web server to log the pages you use in the FDIC site and to
determine if you have visited the site before. The cookie captures no personally identifying
information. The FDIC server uses this information to provide certain features during your visit to
the Web site. You can set your browser to warn you when placement of a cookie is requested,
and decide whether or not to accept it. By rejecting a cookie some of the features available on the
site may not function properly.

Other than the automatic data collection described above, this site collects no personally
identifying information. The sole exception is when you knowingly and voluntarily provide
information, such as when you fill in your name and address on the FOIA request form.

The FDIC uses the information we collect for internal system administrative purposes to measure
the volume of requests for specific web site pages, and to continually improve the FDIC Internet
site to be responsive to the needs of users. Your choice to use the FDIC Web site or to send
electronic mail to FDIC will be considered your consent for the FDIC to use the information
collected therefrom as stated in this notice.




                                                32
 Appendix IV


Information Collected From You
You may decide to send the FDIC information, including personally identifying information. The
information you supply – whether through a secure Web form, a standard Web form, or by
sending an electronic mail message – is maintained by the FDIC for the purpose of processing
your request or inquiry. The FDIC also uses the information you supply in other ways to further
the FDIC’s mission of maintaining stability and public confidence in the nation’s banking system.

Various employees of the FDIC may see the information you submit in the course of their official
duties. The information may also be shared by the FDIC with third parties to advance the purpose
for which you provide the information, including other federal or state government agencies. For
example, if you file a complaint, it may be sent to a financial institution for action, or information
may be supplied to the Department of Justice in the event it appears that federal criminal statutes
have been violated by an entity you are reporting to the FDIC. The primary use of personally
identifying information will be to enable the government to contact you in the event we have
questions regarding the information you have reported.

Under certain circumstances, the FDIC may be required by law to disclose information you submit
to the Corporation, for example, to respond to a Congressional inquiry or subpoena.

If you register with an FDIC online mailing list, the information you provide may also be used to
send you FDIC communiqués or notify you about updates to our web site.

When you choose to send e-mail to the FDIC you are consenting to the FDIC using the
information provided therein, including personally identifying information, in accordance with this
notice, unless you expressly state in the e-mail your objection to any use(s).

As required by federal law, Privacy Act statements are located throughout this web site where the
FDIC requests information from you.

Contacting the FDIC About This Web Site
If you are concerned about how information about you may have been used in connection with
this web site, or you have questions about the FDIC’s privacy policy and information practices
you should contact:
    FDIC Webmaster
    FDIC
    550 17th Street, N.W.
    Washington, DC 20429

    E-mail: webmaster@fdic.gov
Electronic mail is not necessarily secure. You should be very cautious when sending electronic
mail containing sensitive, confidential information. As an alternative, you should give
consideration to sending it by postal mail.




                                                 33
 Appendix II


                   CIO Council’s Proposed Security Notice


This web site is part of a Federal computer system used to accomplish Federal
functions. The [Agency name] uses software programs to monitor this web site
for security purposes to ensure it remains available to all users and to protect
information in the system. By accessing this web site, you are expressly
consenting to these monitoring activities.

Unauthorized attempts to defeat or circumvent security features, to use the
system for other than intended purposes, to deny service to authorized users, to
access, obtain, alter, damage, or destroy information, or otherwise to interfere
with the system or its operation is prohibited. Evidence of such acts may be
disclosed to law enforcement authorities and result in criminal prosecution under
the Computer Fraud and Abuse Act of 1986 and the National Information
Infrastructure Protection Act of 1996, codified at section 1030 of Title 18 of the
United States Code, or other applicable criminal laws.




                                        34
